BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Brief of the
Association of National Advertisers (ANA) and the
ANA Non-Profit Federation as Amici Curiae in
Support of Petitioners in 19-251 and 19-255,
Americans for Prosperity Foundation v. Xavier Becerra,
in his official capacity as the Attorney General of
California, and Thomas More Law Center v. Xavier
Becerra, in his official capacity as the Attorney General
of California, was sent via Next Day Service to the
U.S. Supreme Court, and Next Day e-mail service to
the following parties listed below, this 1st day of
March, 2021:
John J. Bursch
Alliance Defending Freedom
440 First Street NW
Suite 600
Washington, DC 20001
(616) 450-4235
jbursch@adflegal.org
Counsel for Thomas More Law Center
Derek L. Shaffer
Quinn Emanuel Urquhart & Sullivan, LLP
1300 1 Street NW, Suite 900
Washington, DC 20005
(202) 538-8000
derekshaffer@quinnemanuel.com
Counsel for Americans for Prosperity Foundation

I BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

I (8ooi 890.5001

www.beckergallagher.com

8790 Governor's Hill Drive
' Suite 102
Cincinnati, Ohio 45249

Franklin Square

1300 I Street, NW, Suite 400E
Washington, DC 20005

Aimee Athena Feinberg
California Department of Justice
1300 1 Street
Sacramento, CA 95814
(915) 210-6003
Aimee. Feinberg@doj.ca.gov
Counsel for Xavier Becerra, in his offical capacity as
the Attorney General of California
James C. Martin
Counsel of Record
Joshua T. Newborn
Reed Smith LLP
225 Fifth Avenue
Pittsburgh, PA 15222
(412) 288-3131
jcmartin@reedsmith.com
Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on March 1, 2021.

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Date:

( d/

~d, I

c}rtv ~,

Notary Public

·

~

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires

~ebnrny 14, 2023

